     Department of Homeland Security

     ��������������������������


    Management Letter for the U.S. Customs and 

     Border Protection’s FY 2013 Consolidated 

               Financial Statements 





OIG-14-65                                  April 2014

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                         APR 21 2014 
 
MEMORANDUM FOR:	             Deborah Schilling 
                             Chief Financial Officer 
                             U.S. Customs and Border Protection 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                      Management Letter for the U.S. Customs and Border 
                               Protection’s FY 2013 Consolidated Financial Statements 
                                
Attached for your information is our final report, Management Letter for the U.S. 
Customs and Border Protection’s FY 2013 Consolidated Financial Statements. This report 
contains comments and recommendations related to internal control deficiencies that 
were not required to be reported in the Independent Auditors’ Report on U.S. Customs 
and Border Protection’s FY 2013 Financial Statements. Internal control deficiencies 
which are considered significant deficiencies were reported, as required, in the 
Independent Auditors’ Report, dated January 30, 2014, which was included in the U.S. 
Customs and Border Protection’s Fiscal Year 2013 Performance and Accountability 
Report. We do not require management’s response to the recommendations.   
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of U.S. Customs and Border Protection’ (CBP) fiscal year (FY) 2013 
consolidated financial statements. The contract required that KPMG perform its audit 
according to generally accepted government auditing standards and guidance from the 
Office of Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 19, 2014, and the 
conclusions expressed in it.  
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
                                
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




March 19, 2014


Chief Operating Officer
Office of Inspector General
U.S. Department of Homeland Security


Chief Financial Officer
U.S. Customs and Border Protection


Ladies and Gentlemen:


In planning and performing our audit of the consolidated balance sheets of the U.S. Customs and
Border Protection (CBP), a component of the U.S. Department of Homeland Security (DHS),
and the related consolidated statements of net cost, changes in net position, and custodial
activity, and the combined statements of budgetary resources as of and for the years ended
September 30, 2013 and 2012 (hereinafter, referred to as “consolidated financial statements”), in
accordance with auditing standards generally accepted in the United States of America, we
considered CBP’s internal control over financial reporting (internal control) as a basis for
designing audit procedures that are appropriate in the circumstances for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of
expressing an opinion on the effectiveness of CBP’s internal control. We limited our internal
control testing to those controls necessary to achieve the objectives described in Government
Auditing Standards and the Office of Management and Budget Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. Accordingly, we do not express an opinion on the effectiveness of the CBP’s internal
control.

During our audit we noted certain matters involving internal control and other operational
matters that are presented for your consideration. These comments and recommendations, all of
which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies and are listed in the Table of
Financial Management Comments of this letter.

In addition, we identified certain deficiencies in internal control that we consider to be a material
weakness and significant deficiencies, and communicated them in writing to management and
those charged with governance in our Independent Auditors’ Report dated January 30, 2014. The
disposition of each internal control deficiency identified during our fiscal year (FY) 2013 audit –
as either reported in our Independent Auditors’ Report, or herein – is presented in appendix A.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Our findings related to information technology systems have been presented in a separate letter
to the DHS Office of Inspector General and the CBP Chief Information Officer.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. In accordance with
Government Auditing Standards, our Independent Auditors’ Report included internal control
deficiencies identified during our audit, that individually, or in aggregate, represented a material
weakness or significant deficiencies.

Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that
may exist. We aim, however, to use our knowledge of CBP’s organization gained during our
work to make comments and suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

CBP’s management response to the deficiencies identified in our audit is presented in appendix
B. CBP’s management response was not subjected to the auditing procedures applied in the audit
of the consolidated financial statements and, accordingly, we express no opinion on the
response.

The purpose of this letter is solely to describe comments and recommendations intended to
improve internal control or result in other operating efficiencies. Accordingly, this letter is not
suitable for any other purpose.

Very truly yours,
                            Department of Homeland Security
                           U.S. Customs and Border Protection
                            Financial Management Comments
                                  September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)
FMC Reference   Subject                                                                Page
                Automated Commercial System (ACS) Deficiency over the
FMC 13-01                                                                               2
                Accumulation of Accelerated Payments against a Drawback Bond
                Weaknesses in the Recognition of Goods and Services Received as of
FMC 13-02                                                                               2
                March 31, 2013
FMC 13-03       Weaknesses in CBP's Review of Fund Balance with Treasury                3
                Deficiencies in the Public and Confidential Financial Disclosure
FMC 13-04                                                                               3
                Reporting Process
FMC 13-05       Deficiencies in the Performance Management Program                      4
FMC 13-06       Weaknesses in Controls over the Bond Sufficiency Review Process         4
FMC 13-07       Weaknesses in the Trade Compliance Measurement (TCM) Program            5
FMC 13-08       Implementation of Controls over Determining Classification of Leases    6
                Improper Review of Untimely De-obligation of Undelivered Orders
FMC 13-09                                                                               6
                (UDOs)
                Weaknesses in Controls over Customs-Trade Partnership against
FMC 13-10                                                                               7
                Terrorism (C-TPAT) Benefits
FMC 13-11       Deficiencies in the Seized Inventory Process                            7
                Deficiencies in the Control Environment Surrounding the use of
FMC 13-12                                                                               8
                Reimbursable Work Authorizations (RWAs)
FMC 13-13       Deficiencies in Tracking Leases                                          8
FMC 13-14       Retrospective Review over Estimates                                      9
FMC 13-15       Deficiencies in the Inventory and Related Property Process               9
FMC 13-16       Deficiencies in the Review of Adjusting Journal Entries (AJEs)          10
FMC 13-17       Insufficient Review of Apportionment Categories                         10
FMC 13-18       Consideration for Deferred Revenue related to Puerto Rico               10

APPENDICES
Appendix        Subject                                                                Page
                Crosswalk – Financial Management Comments to Active Notices of
A                                                                                       11
                Finding and Recommendation (NFRs)
B               Management Response to the Draft Management Letter                      14




                                              1

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2013



Financial Management Comment (FMC) 13-01: Automated Commercial System (ACS)
Deficiency over the Accumulation of Accelerated Payments against a Drawback Bond (Notice of
Finding and Recommendation (NFR) No. CBP-13-07)

     ACS does not properly account for bond sufficiency of claims that involve a continuous bond.
     Specifically, the automated control that prevents a claimant from exceeding the bond amount on
     file does not operate effectively. The control is designed to accumulate all open accelerated
     payments against a continuous bond to ensure that the bond is sufficient. However, ACS does
     not always properly track open accelerated payments against bonds. As a result, CBP may not
     have sufficient surety against overpayment of a drawback accelerated payment claim.
     Additionally, manual procedures are not in place to ensure the sufficiency of bonds.

     ACS remains the system of record for drawback claims and bonds. In FY 2012, CBP began
     developing a script within ACS, known as “ACP,” that indicates the bond number, claimants
     listed on the bond, anniversary date of the bond, bond value, and a list of all drawback
     accelerated payments applied against the bond. However, the script has not been effectively
     implemented and released into production within ACS.

     Recommendation:
     We recommend that CBP release the revised script into production and issue an updated memo
     to the drawback centers announcing the reinstatement of the ACP script, with instructions on
     how to use the script.

FMC 13-02: Weaknesses in the Recognition of Goods and Services Received as of March 31,
2013 (NFR No. CBP-13-08)

     During test work as of March 31, 2013, we reviewed a statistical sample of 49 operating expense
     type transactions and identified the following:
       •	 In one transaction, the goods receipt amount was greater than the amount of the invoice.
            CBP recorded the goods receipt transaction when the service was received. However, CBP
            was subsequently granted a discount on the invoice but did not apply this discount against
            the original goods receipt, resulting in an overstatement of expenses by the discounted
            amount of $268,000; and
       •	 In seven transactions, goods or services received were not recorded in the proper
            accounting period. Contracting Officer Technical Representatives and accountants did not
            consistently enter goods receipt and service entry sheets timely into Systems,
            Applications, and Products (SAP), CBP’s financial reporting system.




                                                    2

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2013



     Recommendations:
     We recommend that CBP continue to:
     1.	 Develop a process to adjust outstanding service entry sheet amounts once an invoice has
         been posted; and
     2.	 Continue to reinforce policies and procedures around the timely entry of goods receipts.

FMC 13-03: Weaknesses in CBP's Review of Fund Balance with Treasury (NFR No. CBP-13-09)

     During our testing of the December fund balance with Treasury reconciliation, we noted an
     overstatement of $1.483 billion between the amount reported in CBP’s Treasury Information
     Executive Repository (TIER) trial balance as of December 31, 2012 and the amount reported by
     the Department of the Treasury for Treasury Account Fund Symbol (TAFS) 200310, Duties on
     Imports. The overstatement occurred because of an erroneous entry made during the
     reconciliation process between ACS and SAP, which ultimately impacts the Fund Balance with
     Treasury reported in TIER.

     Recommendation:
     We recommend that CBP implement procedures to ensure that the ACS reconciliation is
     reviewed by the Lead Staff Accountant or the Financial Statements Section Chief prior to the
     TIER submission.

FMC 13-04: Deficiencies in the Public and Confidential Financial Disclosure Reporting Process
(NFR No. CBP-13-10)

     During test work over a sample of 15 employees required to file an Office of Government Ethics
     (OGE) 278, Public Financial Disclosure Report, the following deficiency was identified:
       •	 Two OGE-278 forms were not certified by the Reviewing Official within 60 days of the
          date the form was filed.

     During test work over a sample of 25 employees required to file an OGE-450, Confidential
     Financial Disclosure Reports, the following deficiencies were identified:
       •	 Two employees did not file the OGE-450 by the February 15 deadline and were not
          granted extensions; and
       •	 One employee did not file the OGE-450 within 30 days of assuming a Confidential Filer
          position and was not granted an extension.

     Recommendations:
     We recommend that CBP:
     1.	 Ensure the Final Reviewer of the OGE-278s manually adjust their “to do” list in the OGE­
         278 electronic filing system, Financial Disclosure Management , to display the earliest
         deadlines for review and certification at the top of the list;




                                                    3

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2013



     2.	 Conduct a meeting with all OGE-450 point of contacts prior to the calendar year 2014
         annual OGE-450 filing deadline to review the actions needed to ensure extension requests
         are handled in a consistent manner; and
     3.	 Address the system issue with the OGE-450 electronic filing system, Human Resource
         Business Engine (HRBE), to ensure filers are given a correct due date.

FMC 13-05: Deficiencies in the Performance Management Program (NFR No. CBP-13-12)

     During test work over a sample of 45 Non-Senior Executive Services (SES) employees
     (including both supervisory and non-supervisory employees) the following deficiencies were
     identified:
       •	 One non-supervisory employee did not conduct either the initial or mid-year performance
            meeting within the required timeframe; and
       •	 Four supervisory employees did not conduct either the initial or mid-year performance
            meeting within the required timeframe.

     Recommendations:
     We recommend that CBP:
     1.	 Continue to closely monitor the progress and timeliness of CBP program offices in their
         completion of employee performance plan processes;
     2.	 Establish more stringent accountability requirements of each program office; and
     3.	 Continue to send messages on a regular basis to program offices concerning the initiation of
         performance plans, completion of mid-cycle performance reviews, and completion of final
         ratings of record.

FMC 13-06: Weaknesses in Controls over the Bond Sufficiency Review Process (NFR No. CBP­
13-17)

     During testwork performed over a sample of 125 single transaction bonds (STB) and 120
     continuous bonds, we noted the following:
       •	 Four STBs did not sufficiently cover the total value of duties, taxes, and fees of the related
           entry;
       •	 For three STBs related to entries submitted via the Automated Broker Interface (ABI),
           CBP was unable to provide copies of the documentation to support the review of the bond;
           and
       •	 One active continuous bond was insufficient to cover at least 10 percent of duties, taxes
           and fees paid by the importer, or broker acting as importer of record during the previous
           bond year. The insufficient bond did not appear in the Bond Sufficiency Reports and as a
           result the bond was not terminated until after the bond’s anniversary date.




                                                      4

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2013



    In addition, we identified the following weakness over the bond sufficiency process:
      •	 The Bond Sufficiency Reports generated by the Revenue Division are not designed to
          identify all insufficient bonds. Specifically, the Bond Sufficiency Reports do not factor in
          all duties, taxes, and fees paid by the importer during the previous bond year.

          Prior to November 2012, the Bond Sufficiency Reports generated by the Revenue Division
          were designed to consider only 12 months of imports, allowing bonds that became
          insufficient in the final month of a bond year to automatically renew. CBP adjusted the
          parameters of the Bond Sufficiency Reports to consider 13 months of activity, to include
          any bonds that became insufficient in the final month of the bond year. However, the
          timeframe considered by the reports is a rolling 13 months and focuses on the most recent
          13 months of import activity rather than the imports of the prior bond year. As a result, the
          reports do not consistently identify bonds that are insufficient.

    Recommendations:
    We recommend that CBP:
    1.	 Continue to develop the Ebond module in the Automated Commercial Environment (ACE)
        for the electronic submission of all STBs. Ebond should allow for electronic reporting on
        STB sufficiency and will adhere to the document retention policy; and
    2.	 Continue to generate Bond Sufficiency Reports for continuous bonds utilizing a 13-month
        date parameter.

FMC 13-07: Weaknesses in the Trade Compliance Measurement (TCM) Program (NFR No.
CBP-13-19)

    During testing performed at 11 ports of entry, a sample of 120 TCM reviews was examined. The
    following conditions related to the TCM program were identified:
      •	 A TCM reviewer failed to detect the use of an incorrect conversion rate used to convert
          the value of the goods to U.S. dollars for one TCM review;
      •	 Port personnel did not retain the associated supporting documentation to support the
          quantity or value of the import for one TCM review;
      •	 Port personnel did not retain the associated supporting documentation to support the
          deductions to the invoiced value that appeared on the CBP Form 7501, Entry Summary,
          for one TCM review; and
      •	 A TCM reviewer failed to detect a discrepancy between the value used to calculate the
          duties, taxes, and fees on the CBP Form 7501 and the value per the importer’s invoice for
          one TCM review.

     Additionally, during testing over a sample of 22 monthly TCM reports, 2 reports were not
     completed.




                                                     5

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2013



     Recommendations:
     We recommend that CBP:
     1.	 Correct each condition related to the deficiencies identified in the TCM reviews conducted
         at specific ports;
     2.	 Implement controls to ensure that Port Directors follow the existing policies and procedures
         for supervisory oversight of the TCM program; and
     3.	 Reinforce policies and procedures to all field offices and port locations.

FMC 13-08: Implementation of Controls over Determining Classification of Leases (NFR No.
CBP-13-20)

     CBP has not fully implemented processes and controls for the identification of lease agreements
     as capital or operating. CBP does not maintain clear, traceable documentation to evidence how it
     determines the classification of leases as capital or operating.

     Recommendation:
     We recommend that CBP update the lease directive to require the completion and retention of
     the personal property and the Office of Information Technology lease evaluation tool and
     establish related responsibilities.

FMC 13-09: Improper Review and Untimely De-obligation of Undelivered Orders (UDOs) (NFR
No. CBP-13-21)

     During testing of the March and September quarterly obligation analyses, we identified seven
     instances in which an obligation was marked as “invalid” but should have instead been marked
     “valid.”

     During testing of CBP’s inactive obligations (i.e., those with no activity in the current fiscal
     year) as of May 31, 2013, we selected a statistical sample of 83 open obligations and identified 4
     instances which the period of performance on the obligation had expired. CBP did not provide
     sufficient supporting documentation to support that the obligations were still valid for financial
     reporting purposes. These items were identified as either Status 1 or Status 2 in the March
     quarterly obligation analysis, signifying the obligations were valid.

     Recommendation:
     We recommend that the National Finance Center (NFC) continue to communicate with the
     Office of Procurement and Facilities Management and Engineering (FM&E) in addition to the
     other program offices to ensure timely and accurate reviews of UDO balances.




                                                     6

                                     Department of Homeland Security
                                    U.S. Customs and Border Protection
                                     Financial Management Comments
                                           September 30, 2013



FMC 13-10: Weaknesses in Controls over Customs-Trade Partnership against Terrorism (C­
TPAT) Benefits (NFR No. CBP-13-23)

     During testing of a sample of 25 C-TPAT partners, benefits for 3 partners were not appropriately
     applied in ACS.

     Recommendations:
     We recommend that CBP:
     1.	 C-TPAT Evaluations and Assessment Branch (EAB) forward instructions for corrective
         action to the assigned field offices and correct all discrepant sample accounts identified
         during the audit;
     2.	 Send a message to all field offices reminding them that it is their responsibility to ensure that
         ACS is updated with current benefit level, in accordance with the Benefits Standard
         Operating Procedures and ACS Benefits Webinar training; and
     3.	 Implement an ACS audit of corresponding tier status with the C-TPAT portal to be
         conducted monthly or quarterly. Any discrepancies should be forwarded to the assigned field
         office for correction. All corrective actions, once communicated as completed, should be
         verified in ACS by the EAB. Formal reporting of C-TPAT/ACS audit results/corrective
         actions should be forwarded to the C-TPAT Program Director for review.

FMC 13-11: Deficiencies in the Seized Inventory Process (NFR No. CBP-13-24)

     During physical inventory observation procedures conducted at nine seized property vaults, the
     following deficiencies were identified:
       •	 On two different dates in one location, the log book evidenced that only one person
           entered the vault for a period of time; and
       •	 One instance where the amount listed on the Customs Form 6051, Custody Receipt for
           Seized Property and Evidence, did not agree with the amount listed in the Seized Asset
           and Case Tracking System (SEACATS) inventory, resulting in a .06 kilogram
           overstatement.

     Recommendation:
     We recommend that CBP issue a memorandum to the Directors of Field Operations and Ports to
     inform them of the audit findings and remind them of the proper CBP policies and procedures
     that guide their activities around the custody, management, and accountability of seized
     property. Additionally, send a message to the field reminding them of the vault access
     requirements and updating SEACATS within the required timeframes.




                                                      7

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2013



FMC 13-12: Deficiencies in the Control Environment Surrounding the use of Reimbursable
Work Authorizations (RWAs) (NFR No. CBP-13-25)

     CBP personnel entered into RWA agreements with U.S. Army Corps of Engineers (USACE)
     using a procurement process that is outside of CBP’s normal procurement function. In doing so,
     CBP bypassed internal controls that require the use of a warranted contracting officer.

     Recommendations:
     We recommend that CBP:
     1.	 Continue to implement the changes in the DHS Interagency Acquisitions Guide and DHS
         Acquisition Alert 13-19, which outlines DHS policy relating to intra-governmental
         transactions, including interagency acquisitions, intra-agency acquisitions, and intra­
         governmental financial transactions that do not result in a contract or order; and
     2.	 Revise CBP Directive 5320-028D, which defines the appropriate uses of an interagency
         agreement (IAA). Office of Administration (OA) FM&E issued a memorandum to its
         personnel in September 2013 to reinforce appropriate IAA usage and the accompanying
         documentation required to support the OA Procurement Directorate’s issuance of an IAA.

FMC 13-13: Deficiencies in Tracking Leases (NFR No. CBP-13-27)

     During our testing of CBP’s lease information as of September 30, 2013, we selected a sample
     of 25 lease payments and identified the following:
       •	 Nine instances, three involving personal property leases and six involving real property
           leases, in which a payment was made towards a cancellable lease agreement that did not
           appear in CBP’s listing of leases as of September 30, 2013;
       •	 Two instances, one personal property and one real property, in which a lease was
           misclassified as cancellable when it should have been non-cancellable.
       •	 One instance in which the monthly lease payment was incorrect. CBP divided the monthly
           payment by twelve, rather than dividing the annual lease payment by twelve.

     Recommendations:
     We recommend that CBP:
     1.	 Make the required modifications to the Office of Administration-Asset and Administrative
         Management Division-Personal Property Program Management Office personal property
         lease certification control and consider additional controls to further enhance effective
         personal property lease tracking; and
     2.	 Continue to enforce and train on the existing data management policy established by FM&E,
         which clearly defines FM&E Program Management Office responsibilities in the
         management of CBP real property lease data.




                                                    8

                                     Department of Homeland Security
                                    U.S. Customs and Border Protection
                                     Financial Management Comments
                                           September 30, 2013



FMC 13-14: Retrospective Review over Estimates (NFR No. CBP-13-28)

     During audit testing, we determined that CBP does not perform a retrospective review to analyze
     variances between estimated amounts recorded as accruals and actual amounts incurred, once
     known. We noted a lack of retrospective review of estimates in the following areas:
       •	 Refund & Drawback Payable (based on subsequent disbursement testing),
       •	 Anti-Dumping/Countervailing Duties Payable, and
       •	 Funded Payroll Accrual.

     Recommendation:
     We recommend that CBP develop an annual assessment of the Refund & Drawback Payable
     (based on subsequent disbursement testing), Anti-Dumping/Countervailing Duties Payable, and
     Funded Payroll Accrual to validate the methodology used.

FMC 13-15: Deficiencies in the Inventory and Related Property Process (NFR No. CBP-13-29)

     During testing at five Office of Air and Marine (OAM) sites performing an annual inventory, the
     following discrepancies were identified:
       •	 At one location, one of the items selected was recorded as a Type 1 inventory at a value of
           $38,750. Type 1 inventory is tracked as inventory held for use. However, it should have
           been classified as Type 6 inventory, which are tools and equipment used in the facility and
           are tracked as Property, Plant & Equipment or expensed, depending on their value. This
           resulted in an overstatement of Inventory and Related Property and an understatement of
           operating expense in the amount of $38,750.
       •	 At one location, there were six items with a location of “L-3 CANADA” and a description
           of “TWT/TWT Power Supply” with an overall value of $1,362,066. Upon inquiry of the
           site personnel, it was determined that this inventory was purchased and located at the L-3
           site in Canada and has remained there since acquisition, rather than at the location that
           reported it on the count sheet. The items were inventoried by L-3 Canada personnel and
           therefore do not result in a misstatement to the inventory held for use balance. However,
           the location code for the items should have been updated to reflect that they were located
           at the L-3 Canada site.
       •	 At one location, there was a lack of segregation of duties. The Logistics Supervisor
           conducted the inventory count and reviewed the count for discrepancies.

     Recommendation:
     We recommend that CBP monitor contractor’s performance regarding compliance with property
     accountability. Property that is located at the sub-contractors facility will be inventoried yearly
     and OAM will review the results to ensure the correct property location is entered into the
     Computerized Aircraft Reporting and Material Control System (CARMAC).




                                                      9

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2013



FMC 13-16: Deficiencies in the Review of Adjusting Journal Entries (AJEs) (NFR No. CBP-13­
30)

     During our testing of AJEs at year-end, we noted that CBP incorrectly used the FY 2012 cost
     factors instead of the FY 2013 cost factors in the imputed pension cost calculations for the fourth
     quarter AJE.

     Recommendation:
     We recommend that CBP create a checklist that ensures the proper cost factors are used in the
     calculation of the Office of Personnel Management pension benefits.

FMC 13-17: Insufficient Review of Apportionment Categories (NFR No. CBP-13-31)

     During our review of the June 30, 2013 financial statements, we noted that CBP determined that
     certain funds were misclassified initially between Category A and Category B. As a result, CBP
     reclassified these balances for reimbursable obligations between Category A and Category B in
     the current year.

     Recommendation:
     We recommend that the CBP budget analyst responsible for system updates related to the
     categorization of funding include the budget analyst responsible for the Standard Form (SF) 132,
     Apportionment and Reapportionment Schedule, requests via email correspondence between the
     Office of Budget and NFC for new accounts. This corrective action should institute a formal
     review control in place to correctly determine the nature of the funding.

FMC 13-18: Consideration for Deferred Revenue related to Puerto Rico (NFR No. CBP-13-32)

     As of September 30, 2013, CBP recognized $45.1 million in earned revenue related to Puerto
     Rico that it had not yet earned.

     CBP recognizes duties collected on behalf of Puerto Rico as earned revenue after reclassifying
     amounts transferred to Puerto Rico and refunds paid on Puerto Rico’s behalf to custodial
     revenue. Funds retained and therefore recognized as earned revenue first cover expenses, and
     then any un-liquidated obligations. Any amounts retained in excess of expenses incurred should
     be recorded as deferred revenue.

     Recommendation:
     We recommend that CBP implement a procedure for proper recognition of deferred revenue.




                                                     10

                                                                                        Appendix A
                                U.S. Customs and Border Protection
                    Crosswalk – Financial Management Comments to Active NFRs
                                        September 30, 2013



                                                                                   Disposition*
                                                                 Independent Auditors' Report         FMC
 FY 13 NFR                                                        Material   Significant      Non-
                                Description                                                           Number
    No.                                                           Weakness    Deficiency Compliance
CBP-13-01    Number not used                                                       Not applicable
             Weaknesses in CBP's Process related to Asset
CBP-13-02                                                                      B
             Additions as of April 30, 2013
             Weaknesses in CBP's Process related to Asset
CBP-13-03                                                                      B
             Disposals as of April 30, 2013
             Weaknesses in CBP's Process related to Asset
CBP-13-03b                                                                     B
             Disposals as of September 30, 2013

             Improper Settlement of Assets, including Untimely
CBP-13-04    Capitalization of Assets from Construction in                     B
             Progress (CIP) as of April 30, 2013

             Improper Review of CIP Projects as of September
CBP-13-04b                                                                     B
             30, 2013
CBP-13-05    Detection of Excessive Drawback Claims                 A
             Insufficient Retention Period for Documents that
CBP-13-06                                                           A
             Support Drawback Claims

             Automated Commercial System (ACS) Deficiency
CBP-13-07    over the Accumulation of Accelerated Payments                                             13-01
             against a Drawback Bond

             Weaknesses in the Recognition of Goods and
CBP-13-08                                                                                              13-02
             Services received as of March 31, 2013
             Weaknesses in CBP's Review of Fund Balance with
CBP-13-09                                                                                              13-03
             Treasury
             Deficiencies in the Public and Confidential
CBP-13-10                                                                                              13-04
             Financial Disclosure Reporting Process

             Deficiencies in the Completeness and Existence of
CBP-13-11                                                                      B
             Property, Plant, and Equipment (PP&E)

             Deficiencies in the Performance Management
CBP-13-12                                                                                              13-05
             Program




                                                      11

                                                                                        Appendix A
                                U.S. Customs and Border Protection
                    Crosswalk – Financial Management Comments to Active NFRs
                                        September 30, 2013



                                                                                   Disposition*
                                                                    Independent Auditors’ Report          FMC
 FY 13 NFR                                                       Material Significant       Non-
                                Description                                                              Number
    No.                                                          Weakness Deficiency    Compliance

             Weaknesses Identified in the Bonded Warehouse
CBP-13-13                                                                      C
             and Foreign Trade Zone Processes and Procedures

CBP-13-14    Number not used                                                       Not applicable
CBP-13-15    Deficiencies in the In-Bond Process                               C
             Weaknesses in the Review of Entry Edit/Exception
CBP-13-16                                                                      C
             Reports
             Weaknesses in Controls Over the Bond Sufficiency
CBP-13-17                                                                                                 13-06
             Review Process
             ACS Limitations – Review of Prior Drawback
CBP-13-18    Claims and Selectivity for Underlying Consumption      A
             Entry Summaries
             Weaknesses in the Trade Compliance Measurement
CBP-13-19                                                                                                 13-07
             (TCM) Program
             Implementation of Controls over Determining
CBP-13-20                                                                                                 13-08
             Classification of Leases
             Improper Review of Untimely De-obligation of
CBP-13-21                                                                                                 13-09
             Undelivered Orders (UDOs)
                                                                                         Compliance
             Federal Financial Management Improvement Act                                Determined at
CBP-13-22
             (FFMIA)                                                                     Department
                                                                                         Level

             Weaknesses in Controls over Customs-Trade
CBP-13-23                                                                                                 13-10
             Partnership against Terrorism (C-TPAT) Benefits

CBP-13-24    Deficiencies in the Seized Inventory Process                                                 13-11
             Deficiencies in the Control Environment
CBP-13-25    Surrounding Use of Reimbursable Work                                                         13-12
             Authorizations (RWAs)
CBP-13-26    Number not used                                                       Not applicable
CBP-13-27    Deficiencies in Tracking Leases                                                              13-13




                                                       12

                                                                                               Appendix A
                                      U.S. Customs and Border Protection
                          Crosswalk – Financial Management Comments to Active NFRs
                                              September 30, 2013



                                                                                          Disposition*
                                                                            Independent Auditors’ Report      FMC
 FY 13 NFR                                                               Material Significant       Non-
                                      Description                                                            Number
    No.                                                                  Weakness Deficiency    Compliance
CBP-13-28         Retrospective Review over Estimates                                                         13-14
                  Deficiencies in the Inventory and Related Property
CBP-13-29                                                                                                     13-15
                  Process
                  Deficiencies in the Review of Adjusting Journal
CBP-13-30                                                                                                     13-16
                  Entries (AJEs)

CBP-13-31         Insufficient Review of Apportionment Categories                                             13-17

                  Consideration for Deferred Revenue related to
CBP-13-32                                                                                                     13-18
                  Puerto Rico


*Disposition Legend:

FMC         Financial Management Comment



Cross-reference to the applicable sections of the Independent Auditors' Report:

A           Drawback of Duties, Taxes, and Fees
B           Property, Plant, and Equipment
C           Entry Process




                                                            13

                                                                                      Appendix B
                              U.S. Customs and Border Protection
                       Management Response to the Draft Management Letter
                                     September 30, 2013


                                                                       U.S. Department of Homeland Security
                                                                       Washington. DC 20229

                                                                       U.S. Customs and
                                                                       Border Protection
     MAR 0 7 2014

MEMORANDUM FOR:               Mark Bell
                              Acting Assistant Inspector General for Audits
                              Department of Homeland Security

FROM:                         Deborah J. Schilling
                              Chief Financial Officer

SUBJECT:                      Management Response to Management Letter Report on U.S .
                              Customs and Border Protection's Fiscal Year 2013 Consolidated
                              Financial Statements

On behalf of U.S. Customs and Border Protection (CBP), I am responding to the report entitled
"Management Letter for U.S. Customs and Border Protection's Fiscal Year 2013 Consolidated
Financial Statements."

We have reviewed and concur with all weaknesses contained in the report. CBP will continue to
work to resolve all audi tor identified weaknesses.

Om Agency appreciates the opporttmity to review this year' s report and looks forward to
continuing our professional auditing relationship with your office.

If you have any questions or would like additional information, please contact me at
(202) 344-23 00, or a member of your staff may contact Ms. Jaye M. Williams, Executive
Director, Financial Operations Directorate, at (202) 344-2364.




Deborah J. Schilling




                                                 14

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer
   Chief Financial Officer
   Chief Information Officer


   U.S. Customs and Border Protection

   Commissioner
   Chief Financial Officer
   Chief Information Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-65

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
